 OFFICE OF AUDIT
 REGION 1
 BOSTON, MA




                Maine State Housing Authority,
                        Augusta, ME

               Housing Choice Voucher Program
                             And
               Other Expenditures of HUD Funds




2012-BO-1005                             SEPTEMBER 28, 2012
                                                        Issue Date: September 28, 2012

                                                        Audit Report Number: 2012-BO-1005




TO: Marilyn B. O’Sullivan, Director, Office of Public Housing, Boston Hub, 1APH

     Robert Shumeyko, Director, Office of Community Planning and Development, 1CPD



FROM: Edgar Moore, Regional Inspector General for Audit, Boston Region, 1AGA


SUBJECT: Housing Choice Voucher Program Units Did Not Meet HUD’s Housing Quality
         Standards, and Authority Officials Did Not Always Comply with HUD’s or Their
         Own Procurement Policy

    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG), final results of our review of the Maine State Housing Authority’s
Housing Choice Voucher Program and Other Expenditures of HUD Funds.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
212-264-4174.




                                                1
                                          September 28, 2012
                                          Housing Choice Voucher Program Units Did Not Meet
                                          HUD’s Housing Quality Standards, and Authority
                                          Officials Did Not Always Comply with HUD’s or Their
                                          Own Procurement Policy


Highlights
Audit Report 2012-BO-1005


 What We Audited and Why                   What We Found

We audited the Maine State Housing        Our inspection of Housing Choice Voucher program
Authority’s Housing Choice Voucher        units found that 53 of 61 units inspected did not meet
program pertaining to its housing         HUD’s housing quality standards. Authority officials
quality standard inspections, and other   did not have adequate oversight of contracted program
expenditures and procurements using       agents and had an ineffective quality control system
U.S. Department of Housing and Urban      for their own inspectors. There were units that should
Development (HUD) funds. Our              have failed inspection due to deficiencies but were
review was initiated based on a           instead passed, and Authority officials continued to
congressional request from Senator        make housing assistance payments for these
Susan Collins. The objectives of the      inadequate units. As a result, some tenants lived in
audit were to determine whether (1) the   units that did not meet HUD’s standards for decent,
Authority’s Housing Choice Voucher        safe, and sanitary housing, and Authority officials
program units selected for review met     made at least $194,956 in housing assistance payments
housing quality standards, and (2) the    for units that did not meet housing quality standards.
use of HUD funds for expenditures and
procurements complied with HUD rules      In addition, although Authority officials generally
and regulations.                          charged expenses to HUD programs that were eligible,
                                          reasonable, and supported, they awarded a contract to
 What We Recommend                        an information technology consultant without
                                          following HUD’s or their own procurement regulations
                                          or policies for noncompetitive proposals. From
We recommend that the Director of         January 1, 2010, to December 31, 2011, the Authority
HUD’s Boston Office of Public             paid the consultant $848,096, of which $111,742 was
Housing require Authority officials to    charged to the Homeless Management Information
(1) repay the Housing Choice Voucher      Systems program.
program $194,956 from non-Federal
funds and (2) conduct an independent
cost analysis for the $111,742 charged
to the Homeless Management
Information Systems program to
determine whether costs were eligible,
reasonable, and supported.




                                                2
                           TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit
      Finding 1: The Authority Did Not Ensure That Housing Choice Voucher
                 Program Units Met HUD’s Housing Quality Standards                6

      Finding 2: Authority Officials Did Not Always Comply with HUD’s or Their
                 Own Procurement Policy                                          17

Scope and Methodology                                                            19

Internal Controls                                                                21

Appendixes
A.    Schedule of Questioned Costs                                               23
B.    Auditee Comments and OIG’s Evaluation                                      24
C.    Summary of Housing Quality Standards Inspection Results by Category        29




                                           3
                      BACKGROUND AND OBJECTIVES

The United States Housing Act of 1937 established the Federal framework for government-
owned affordable housing and was amended by the Quality Housing and Work Responsibility
Act of 1998 to create the Housing Choice Voucher tenant-based program. The program is
funded by the U.S. Department of Housing and Urban Develoment (HUD) and allows public
housing authorities to pay subsidies directly to housing owners on behalf of the assisted family.

The Maine State Housing Authority was created in 1969 by an act of the Maine Legislature and is a
public corporation and government instrumentality of the State of Maine. The Authority is a
component unit of the State of Maine, and its mission is to assist residents of Maine in obtaining and
maintaining decent, safe, affordable housing and services suitable to their unique housing needs.

The Authority has assets in excess of $1.9 billion, and its annual revenues and expenses are
approximately $270 million each. In calendar years 2010 and 2011, the Authority received more
than $24.8 and $24.1 million in housing assistance payments and more than $3.5 and $3.6 million in
administrative fees, respectively, from HUD related to the Housing Choice Voucher program.
Other programs of the Authority include home-buyer assistance, home improvement assistance,
housing development, rental assistance, homeless assistance, and energy assistance. The
Authority received approximately $115 million and $109 million in HUD funds related to these
programs in fiscal years 2010 and 2011, respectively. As of July 31, 2012, more than 99 percent
of those funds had been expended.

Authority officials administer approximately 3,200 Housing Choice Voucher program units for
HUD. Before January 2012, Authority officials administered some counties directly and used
four program agents to cover other counties in the State as follows:

                           Entity                               Number of units
                                                                 administered
        Aroostook County Action Program                                               292
        Avesta Housing Corporation                                                  1,252
        Maine Housing                                                                 870
        Penquis                                                                       628
        Washington-Hancock Community Agency                                           157
        Total                                                                       3,199

On October 27, 2011, the Norway Advertiser Democrat published an article entitled “Slumlords,
shoddy oversight, tax dollars…living on Section 8,” exposing inadequate living conditions in
which fire escapes and other conditions did not meet HUD’s housing quality standards. The
properties highlighted in the article were administered by the Avesta Housing Corporation, one
of the Authority’s four program agents. As a result of the news articles and a congressional
inquiry, Authority officials initiated their own review and confirmed the poor conditions in
housing units. They inspected more than 125 units in Oxford County, and the majority of the
units did not meet HUD’s housing quality standards. As a result, Authority officials decided to
phase out the four program agents by September 30, 2012. They will begin to administer the

                                                  4
entire Housing Choice Voucher program from their main office in Augusta by October 1, 2012.
Authority officials have increased staff in their Inspection Services department and anticipate
that employees will conduct all housing quality standard inspections. In addition, HUD is
conducting inspections of 100 percent of the units and is working with Authority officials to
develop a corrective action plan, which if properly implemented, should improve the program’s
administration.

In a related story, the Maine Wire1 reported that Authority officials may have made questionable
disbursements involving gift cards, catering services, and travel. The Maine Wire identified nine
specific vendors or businesses to which the Authority made disbursements that the Maine Wire
considered questionable.

Our review was initiated in response to a Congressional request made to the Inspector General
dated December 22, 2011. Specifically Senator Susan Collins was concerned with whether
federal housing subsidies were supporting properties that did not meet Housing Quality
Standards (HQS) and about the well-being and safety of tenants who are living in units that are
not in compliance with HUD’s HQS. In addition, the Senator expressed concerns about
inappropriate expenditure of funds at the Authority. The audit objectives were to determine
whether (1) the Authority’s Housing Choice Voucher program units selected for review met
HUD’s housing quality standards, and (2) the use of HUD funds for expenditures and
procurements complied with HUD rules and regulations. We performed a limited review of
expenditures that primarily focused on specific disbursements identified in the news media for
which HUD funds were used.




1
    The Maine Wire is a project of the Maine Heritage Policy Center.

                                                          5
                                RESULTS OF AUDIT


Finding 1: The Authority Did Not Ensure That Housing Choice
           Voucher Program Units Met HUD’s Housing Quality
           Standards
Our inspection of Housing Choice Voucher program units found that 53 of 61 units inspected (87
percent) did not meet HUD’s housing quality standards. This condition occurred because
Authority officials did not have adequate oversight of contracted program agents, and had an
ineffective quality control system for their own inspectors. Overall, Authority officials lacked
commitment regarding the Housing Choice Voucher program inspection process. There were
units that should have failed inspection due to deficiencies but were instead passed and continued
to receive housing assistance payments. As a result, some tenants lived in units that did not meet
HUD’s standards for decent, safe, and sanitary housing, and Authority officials made at least
$194,956 in housing assistance payments for units that did not meet housing quality standards.


 Program Units Did Not Meet
 HUD Standards

               Authority officials did not ensure that the Authority’s Housing Choice Voucher
               program units meet HUD’s housing quality standards. Of 61 units inspected, 53
               (87 percent) did not met the minimum standards. Our inspections included units
               distributed across Maine and covered the four program agents, as well as units
               administered directly by Authority officials.

               Housing quality standards include the following 13 performance areas:

                          1. Sanitary facilities,
                          2. Food preparation and refuse disposal,
                          3. Space and security,
                          4. Thermal environment,
                          5. Illumination and electricity,
                          6. Structure and materials,
                          7. Interior air quality,
                          8. Water supply,
                          9. Lead-based paint,
                          10. Access,
                          11. Site and neighborhood,
                          12. Sanitary condition, and
                          13. Smoke detectors.




                                                6
According to 24 CFR (Code of Federal Regulations) 982.401, all program
housing must meet the housing quality standards performance requirements both
at commencement of assisted occupancy and throughout the assisted tenancy.
The areas in which we found the most concerns were related to illumination and
electricity, structure and materials, space and security, and site and neighborhood
conditions. For additional details, see appendix C, “Summary of Housing Quality
Standards Inspection Results by Category.”

The inspection results for units administered by the four program agents and
Authority officials were as follows:

                             Unit pass or fail housing                    24-hour
                             quality inspection?                          fail item
     Administered by            Pass            Fail          Totals
1    Aroostook County             4              6             10              5
     Action Program
2    Avesta Housing                  1           18             19             9
     Corporation
3    Maine Housing                   1            8              9             1
     Direct
4    Penquis                         1           10             11             4
5    Washington-                     1           11             12             9
     Hancock
     Community Agency
     Totals                          8           53             61             28

In addition, 28 of the 61 units (46 percent) had emergency or life-threatening
violations requiring correction within 24 hours. There were 196 housing quality
standards unit deficiencies within HUD’s 13 performance areas (see appendix C).

During our inspections, we observed many of the units had at least one material
deficiency that was considered to be preexisting. A material deficiency is a
violation that created an unsafe tenant living condition, a 24-hour emergency
deficiency, and/or a deficiency that was a preexisting deficiency. Preexisting
deficiencies are deficiencies that would have been present at prior inspections.
For example, exposed electrical wiring probably existed at the last inspection and
should have been identified and corrected before our inspection.

The items below represent examples of some of the units that did not meet HUD’s
housing quality standards.




                                 7
The picture above shows a 5-gallon portable propane tank located at the rear of the unit, which
was connected to the kitchen stove. The propane tank was on top of a flat plastic container
supported by four rubber vehicle tires near a gas can and an oil tank, which was a potential fire
hazard.




The picture above shows that the toilet was missing a flush handle.




                                        8
The picture above shows that the tub-shower was missing a control handle and a wrench was
being used as a substitute.




The picture above shows that the main entry door frame was separated and the door did not close
correctly, as duct tape was used to hold it in place.


                                      9
The unit above did not pass our inspection for many reasons, such as the main
entry screen door was not properly secured, the exterior windows were
weatherworn, and the exterior paint was peeling. Also, there was garbage and
debris in the yard, a possible fire hazard due to a 55-gallon oil drum with oil
possibly inside, and a stove with an unsafe connection. In the kitchen, there was
an electrical hazard, as the ground fault interrupter circuit had an open ground. In
addition, the bathroom had an electrical hazard, as a ground fault interrupter
circuit receptacle was loose and separated from the wall. The bathroom ceiling
also showed indications of water moisture, and the linoleum flooring had
separated around the shower due to water penetration.

The tenant in the unit had a 6-year-old child. The Authority and the Office of
Inspector General (OIG) inspector recommended relocating the tenant and child
due to health and safety issues pertaining to the propane tank installation. The
unit above passed inspection in September 2011. We believe that some of the
preexisting deficiencies were the unsafe propane connection to the kitchen stove
and the main entry door that did not properly close. Therefore, Federal funds
should not have been used to subsidize this unit following the September 2011
inspection.




The picture above shows a sagging roof that was leaking water into the unit.




                                      10
The picture above shows a hole in the bathroom wall.




The picture above shows a water-stained bedroom ceiling.




                                     11
The picture above shows mold and mildew on the ceiling and a hole in the corner of the shower
area that was taped and could lead to water damage.




The picture above shows the water damage to the bathroom floor that was caused by the leaking
toilet.




                                     12
The picture above shows the rear steps, which needed a protective railing on the right side, and the
landing at ground level, which was sloped, causing a tripping hazard.

The unit did not pass OIG’s inspection for several reasons. In the living room,
there were water stains on the ceiling. The front door was drafty. Also, there was
about a 3-inch gap between the storm door and the home. In the kitchen area, the
exhaust fan did not work. The unit had passed inspection in December 2011. We
believe that some of the preexisting deficiencies were the sagging roof, which was
leaking water into the unit, and the mold and mildew on the ceiling in the shower
area. Therefore, Federal funds should not have been used to subsidize this unit
following the December 2011 inspection.




The picture above shows a preexisting electrical issue of wiring coming from a hole in the wall
into a junction box that was not secured, exposing more wire in the foyer-entrance to a unit.



                                       13
The picture above shows a rust-stained tub that was preexisting and should have been replaced or
repaired. The tub is a health and safety issue.




The picture above shows a stove vent hood motor that did not work and was covered in grease,
which was a preexisting condition as well as a fire hazard.

Although 53 Housing Choice Voucher program units did not pass OIG’s unit
inspections, Authority officials made housing assistance payments to landlords,
which were ineligible. Landlords receive a monthly payment directly from the
Authority on the tenant’s behalf for a portion of the tenant’s monthly rent and
utilities; however, for a landlord to receive the payment, the unit must meet
HUD’s housing quality standards. Approximately $194,956 in ineligible housing
assistance payments were made for units that did not meet HUD’s standards. In a
statement regarding unit condition at the Authority, HUD officials stated that
Federal funds should not have been used to subsidize the inadequate housing in
Maine. The Authority should repay the Housing Choice Voucher program
$194,956 for the units that did not meet housing quality standards.


                                      14
Authority Officials’ Monitoring
of Inspections Was Insufficient

             Authority officials determined through their monitoring reviews that the four
             program agents did not perform satisfactory inspections; however, they did not
             take sufficient corrective action to address the issues identified. In calendar year
             2010, the Authority’s quality control inspections of units administered by the four
             program agents found that 44 of 82 units (54 percent) did not pass inspection. In
             addition, 11 of 18 units (61 percent) administered by Authority officials also did
             not meet HUD’s housing quality standards. Officials noted that some units
             passed inspection when there were fail conditions that would have been present at
             prior inspections, such as leaky roofs requiring shingling. Authority officials met
             with program agents, but the inspection process did not improve sufficiently to
             meet HUD standards as evidenced by our inspection results.

             Further, when we conducted our inspections, several tenants stated that during
             inspections, agent inspectors only walked through the unit and pressed the smoke
             detector. The tenants stated that an inspector might spend 10 to 15 minutes
             performing an inspection; however, a typical inspection should take
             approximately 45 minutes. However, because of Authority officials’ insufficient
             monitoring of agents and their inspectors, some tenants had to live in units that
             did not meet HUD’s standards for decent, safe, and sanitary housing.

Authority and HUD Officials
Were Working on a Corrective
Action Plan

             During our audit, officials from HUD’s Office of Public Housing became
             involved in monitoring and evaluating the Authority because of heightened
             interest from Congress and the public. We have been working with HUD Public
             Housing officials and they are aware of the conditions. Although HUD is
             proactively working with Authority officials we are issuing this finding in
             response to the congressional inquiry from Senator Collins. In an attempt to
             correct the poor inspections of the agent and Authority inspectors, HUD, in April
             2012, decided to inspect the entire inventory of voucher units in Maine. The
             inspections were estimated to be completed in the fall or winter of 2012. The
             HUD field office has received monthly updates on the additional inspections
             being conducted and the Authority’s steps in developing the corrective action
             plan, which if implemented, should improve the Authority’s program
             administration.

Conclusion

             Of 61 Housing Choice Voucher program units inspected, 53 (87 percent) did not
             meet HUD’s housing quality standards. This condition occurred because
                                              15
          Authority officials did not have adequate oversight of contracted program agents
          and had an ineffective quality control system for their own inspectors. As a
          result, some tenants lived in inadequately maintained apartment units, and
          Authority officials made $194,956 in housing assistance payments to landlords
          for units that did not meet HUD’s housing quality standards. In addition, since
          HUD pays the Authority an administrative fee to manage the Housing Choice
          Voucher program, we believe that a portion of the Authority’s administrative fee
          should be recouped, since officials did not administer the program in compliance
          with HUD standards.


Recommendations

          We recommend that the Director of HUD’s Boston Office of Public Housing require
          Authority officials to

              1A. Ensure that the unit deficiencies identified in the OIG inspections have
                  been corrected so the units meet housing quality standards.

              1B Improve the quality control inspection process to better address gaining
                 compliance from inspectors when deficiencies are identified, and ensure
                 that all Housing Choice Voucher program units meet housing quality
                 standards.

              1C. Repay the Housing Choice Voucher program $194,956 from non-Federal
                  funds, representing the housing assistance payments for the units that did
                  not meet housing quality standards.

          In addition, we recommend that the Director of HUD’s Boston Office of Public
          Housing

              1D. Determine the amount of administrative fees to be recovered from the
                  Authority for the units that did not meet housing quality standards.




                                          16
Finding 2: Authority Officials Did Not Always Comply with HUD’s or
           Their Own Procurement Policy
Authority officials generally charged expenses to HUD programs that were eligible, reasonable, and
supported. However, they awarded a contract by noncompetitive proposal to an information
technology consultant without providing proper written justification and without performing the
required cost analysis. This condition occurred because Authority officials did not follow HUD’s
procurement regulations or their own procurement policy regarding procedures for handling
noncompetitive proposals. As a result, they could not assure HUD that $848,096 paid for these
services represented the most favorable price. Of the $848,096 spent, $111,742 was charged to the
Homeless Management Information Systems program from January 1, 2010, to December 31, 2011.


    Payment to an Information
    Technology Consultant Was
    Unsupported

                   Authority officials did not maintain records that would justify awarding a contract
                   by noncompetitive proposal to an information technology consultant. HUD’s
                   procurement regulations provide that procurement by noncompetitive proposals may
                   be conducted only if a written justification is made as to the necessity of using this
                   method and a cost analysis is performed.2 Authority officials hired the consultant
                   after they unexpectedly lost a key employee who managed their Homeless
                   Management Information Systems (HMIS) program. The Authority was at risk of
                   losing HUD funds if it did not meet certain HMIS timing and reporting
                   requirements. Therefore, Authority officials executed a contract with the consultant
                   on January 1, 2010, to implement HMIS and the Homeless Initiatives Database.
                   This was a cost-reimbursement contract with the option for two additional terms of 1
                   year each. For the period January 1, 2010, through December 31, 2011, the
                   Authority paid the consultant $848,096, $111,742 of which was charged to the
                   HMIS program.

                   Authority officials stated that the staff responsible for procuring the consultant
                   was no longer employed at the Authority. Although the Authority’s staff
                   searched for documentation, it was not able to provide the required information
                   for this procurement.

    Officials Failed To Comply
    With Their Procurement Policy

                   The Authority’s procurement policy establishes that procurements by
                   noncompetitive proposals will be justified in writing and approved in writing by

2
    HUD Handbook 7460.8, chapter 8, sections 4 and 5


                                                       17
             the director. The policy further states that the Authority will perform a price or
             cost analysis (such as verifying the proposed price or cost data), projections of the
             data, and evaluations of the specific elements of costs and profit or comparison of
             prices as applicable. However, Authority officials did not provide adequate
             evidence that they followed HUD’s or their own procurement policies.

Conclusion

             Authority officials failed to follow HUD’s procurement regulations or their own
             procurement policy when procuring an information technology consultant by the
             noncompetitive proposal process. They awarded the contract without providing
             proper written justification and without performing the required cost analysis. This
             condition occurred because Authority officials did not follow HUD’s or their own
             procurement policy for handling noncompetitive proposals. Therefore, the
             Authority could not assure HUD that $848,096 paid for the consultant’s services
             represented the most favorable price. Of the $848,096 spent, $111,742 was charged
             to HMIS program from January 1, 2010, to December 31, 2011.

Recommendations

             We recommend that the Director of HUD’s Boston Office of Community Planning
             and Development require Authority officials to

             2A. Obtain retroactive approval from HUD for this procurement or find
                 documentation to show that their request for a non-competitive bid was
                 approved.

             2B. If the Authority officials cannot obtain HUD approval or find documentation to
                 show that their request for a non-competitive bid was approved, conduct an
                 independent cost analysis for the $111,742 charged to the HMIS program to
                 determine whether costs were reasonable. For any amounts not reasonable,
                 HUD should require Authority officials to reimburse the program from non-
                 Federal funds.

             2C. Implement controls to ensure that HUD’s procurement rules and regulations
                 and the Authority’s own procurement policy are always followed.




                                              18
                        SCOPE AND METHODOLOGY
We performed the audit fieldwork from January through June 2012 at the Authority’s offices at
353 Water Street, Augusta, ME. The audit covered the period January 2010 through December
2011. To accomplish the audit objectives, we performed the following steps:

             Reviewed applicable HUD handbooks and guidebooks, the Code of Federal
              Regulations, annual contributions contracts, HUD public housing notices, and the
              Authority’s administrative plan.

             Conducted discussions with Authority officials to gain an understanding of the
              Authority’s financial structure, monitoring policies, inspection practices, expense
              procedures, and procurement practices.

             Reviewed the Authority’s organizational charts and job descriptions to determine
              each staff member’s involvement with the Housing Choice Voucher program.

             Reviewed program agent agreements and contracts.

             Selected and inspected Housing Choice Voucher program units. The sampling
              frame consisted of 3,046 Housing Choice Voucher program units that passed
              inspection or were granted an extension after February 2011. These units were
              distributed across Maine and covered areas not managed by a municipal housing
              authority. The universe was grouped into clusters so that the audit team could
              minimize travel time. In addition, the audit team selected units to ensure
              coverage of the four program agents and units administered directly by the
              Authority. Thus, we inspected 61 units as follows: 10 units administered by the
              Aroostook County Action Program, 19 units administered by the Avesta Housing
              Corporation, 9 units administered by the Authority, 11 units administered by
              Penquis, and 12 units administered by Washington-Hancock Community Agency.

             Calculated that the Authority should repay the Housing Choice Voucher program
              $194,956 for the units that did not meet HUD’s housing quality standards. For
              each unit, we determined the amount of housing assistance payments made to
              landlords for the period between the date of OIG’s inspection and the prior
              inspection.

             Reviewed the Authority’s procurement policies and procedures to ensure that they
              were consistent with HUD requirements and evaluated the internal controls and
              conducted sufficient tests to determine whether controls functioned as intended.

             Reviewed the Authority’s two most current audited independent public
              accounting reports to determine whether reviews contained specific findings or
              internal control weaknesses that either required follow-up or were pertinent to our
              review.


                                               19
              Reviewed disbursements for nine vendors or businesses that were questioned in
               the media. Using the Authority’s vendor history report (which included HUD and
               non-HUD charges) covering the audit period, we selected a nonrepresentative
               sample of 23 disbursements totaling $208,119 from a universe of 105
               disbursements totaling $292,394 for these nine vendors. The sample selection
               was based on the three largest disbursements selected from each of seven vendors
               and the only disbursement for each of the remaining two vendors. We determined
               whether disbursements were eligible and reasonable and reviewed supporting
               documentation, including invoices, copies of checks, purchase orders (if
               applicable), and itineraries related to the meetings or training.

              Selected a sample of 30 disbursements totaling $414,259 from a universe of 1,093
               HUD disbursements totaling more than $5.8 million. In selecting the sample of
               30 disbursements, we considered items with the largest dollar value in the
               universe, the frequency of these disbursements, unusual or unfamiliar items,
               expenses incurred by individual staff members, and other instances in which the
               nature of the vendor may have raised questions as to eligibility and
               reasonableness in relation to the Authority’s programs. We determined whether
               the disbursements were eligible and reasonable and reviewed supporting
               documentation, including invoices, copies of checks, purchase orders (if
               applicable), and itineraries related to meetings or training.

              Using the universe of 1,093 HUD disbursements, we selected 11, or 100 percent,
               of the charges totaling $3,585 for the catering vendor that the Authority used most
               often. We decided to review catering services amid media and public concerns
               that the Authority spent excessive funds catering lunches and refreshments for
               employee gatherings held at the Authority. We used the 100 percent selection
               sampling method based on the limited number of HUD charges for the vendor in
               question. We determined whether disbursements were eligible and reasonable
               and reviewed supporting documentation, including invoices, copies of checks,
               purchase orders (if applicable), and itineraries related to the meetings or training.

              Identified the sources and uses of HUD funds disbursed and reconciled any
               differences identified.

              Evaluated the Authority’s procurement practices by reviewing a procurement
               related to an information technology consultant. We followed up on this one
               procurement due to the dollar amount of funding expended.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.



                                                20
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations.
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                     Controls over housing quality standards,
                     Controls over the Housing Choice Voucher program,
                     Controls over disbursements, and
                     Controls over procurements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 21
Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

                   Authority officials had inadequate controls over housing quality standards
                    inspections, specifically the monitoring of program agents and their own
                    inspection practices (see finding 1).

                   Authority officials did not comply with HUD procurement regulations and
                    the Authority’s procurement policy (see finding 2).




                                              22
                                    APPENDIXES

Appendix A

                  SCHEDULE OF QUESTIONED COSTS

      Recommendation
                              Ineligible 1/        Unsupported 2/
          number

             1C                $194,956

             2B                                      $111,742


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                              23
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         24
Ref to OIG Evaluation   Auditee Comments




Comment 1




                         25
Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 3




                         26
Ref to OIG Evaluation   Auditee Comments




                         27
                           OIG Evaluation of Auditee Comments

Comment 1     The actions taken by Authority officials as described in the Introduction Section
              of their letter is responsive to our recommendations.

Comment 2     Authority officials were concerned with our computation of administrative fees
              requested to be repaid and they believe that only amounts applicable to units with
              material deficiencies should be repaid. We adjusted the report to clarify what
              constitutes a material deficiency and a preexisting condition. It should also be
              noted that the majority of the units in our computation contained 24 hour
              violations and those that did not contain 24 hour violations contained several
              deficiencies that when aggregated could be considered material; nevertheless, the
              exact amount to be repaid will have to be resolved with HUD officials during the
              audit resolution process.

Comment 3 The actions taken by Authority officials are responsive to our recommendations.




                                              28
Appendix C

        SUMMARY OF HOUSING QUALITY STANDARDS
           INSPECTION RESULTS BY CATEGORY

   70

                                                            61       61                      61
   60                        57                                               58

              53                                   53

   50
                                       46                                                             46

        39
   40                                                                                  37
                        34
                                              32
                                            29
   30                  27
                                                                                        24                  Pass
         22
                                                                                                            Fail
   20
                                      15                                                               15


   10              8                                    8
                                  4                                                3
                                                                 0        0                       0
    0




                                                    29
